APPENDIX

-iaTABLE OF CONTENTS
Appendix Page
Judgment of
The United States Court of Appeals
For the District of Columbia
entered June 26, 2020 ....................................................................................... 1a
Judgment of
The United States District Court for
The District of Columbia
entered March 18, 2019 .................................................................................... 5a

1a
USCA Case #19-3020

Document #1849098

Filed: 06/26/2020

Page 1 of 4

~nit.eh ~tat.es Qlourt of J\pp.eals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-3020

September Term, 2019
FILED ON: June 26, 2020

UNITED STATES OF AMERICA,
APPELLEE
V.

ORLANDO BELL,
APPELLANT

Appeal from the United States District Court
for the District of Columbia
(No. 1: 17-cr-00234-7)

Before: HENDERSON, WILKINS and KATSAS, Circuit Judges

JUDGMENT
This appeal was considered on the record from the United States District Court for the District of
Columbia and on the briefs of the parties. See FED. R. APP. P. 34(a)(2); D.C. CIR. R. 34(j). The Court has
afforded the issues full consideration and has determined that they do not warrant a published opinion. See
D.C. CIR. R. 36(d). For the reasons stated below, it is
ORDERED AND ADJUDGED that the judgment of the District Court be AFFIRMED.

Following a jury trial, Orlando Bell was convicted of Unlawful Possession with Intent to Distribute
Cocaine Base, in violation of 21 U.S.C. § 84l(a)(l) and 84l(b)(l)(C), and of Using, Carrying, and
Possessing a Firearm During a Drug Trafficking Offense, in violation of 18 U.S.C. § 924(c)(l). J.A. 529.
The jury acquitted Bell of the charge of Conspiracy to Distribute and Possess with Intent to Distribute
Cocaine Base and Heroin, 21 U.S.C. § 846. J.A. 529. The District Court sentenced Bell to seventy months
of incarceration on the drug charge and to sixty months of incarceration on the firearm charge, to be served
consecutively. J.A. 517-19. Bell raises four issues on appeal; we find merit in none of them.
Bell first contends that the District Court erred in denying his motion to dismiss the firearm charge
and in granting the government's motion to amend the superseding indictment. Blue Br. 5-13. Specifically,
the original indictment listed the possession charge as Count Thirty-Six and the firearms charge as Count
Thirty-Seven. J.A. 31. The grand jury issued a superseding indictment, which listed Bell's possession
charge as County Thirty-Seven and the firearms charge as Count Thirty-Eight. J.A. 48. Count Thirty-

I

(Page 4 of Total)

2a
USCA Case #19-3020

Document #1849098

Filed: 06/26/2020

Page 2 of 4

Eight, the firearms charge in the superseding indictment, still referenced the predicate drug offense (the
possession charge) as "Count Thirty-Six," even though the drug offense had been renumbered as Count
Thirty-Seven. J.A. 49. The District Court denied Bell's motion to dismiss Count Thirty-Eight of the
superseding indictment, and granted the government's motion to amend the superseding indictment to
correct the numeration error. J.A. 305-09. The government then filed a "Retyped Indictment," J.A. 285302, which, in Count Thirty-Eight, identified Count Thirty-Seven as the predicate offense, id. 300. Bell
now argues that the amendment violated the Grand Jury Clause of the Fifth Amendment. Blue Br. 5-13.
It is a "settled rule in the federal courts that an indictment may not be amended except by resubmission
to the grand jury, unless the change is merely a matter of form." Russell v. United States, 369 U.S. 749,
770 (1962); see U.S. CONST. amend. V ("No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury."). "An amendment of form and
not of substance occurs when the defendant is not misled in any sense, is not subjected to any added burden
and is not otherwise prejudiced." United States v. Kegler, 724 F.2d 190, 194 (D.C. Cir. 1984); see also
United States v. Bush, 659 F.2d 163, 167 (D.C. Cir. 1981) (amendment may permissibly "correct a clerical
error plainly insignificant in nature" if the defendant was not "misled by the miscue"). Indeed, upon finding
an absence of prejudice to a defendant, we have previously countenanced the judicial amendment of an
indictment to correct the typographical omission of the mens rea of an offense. United States v. Sobamowo,
892 F.2d 90, 97 (D.C. Cir. 1989). Bell neither contended below that he was prejudiced by this obvious
typographical error, J.A. 309, nor makes any claim of prejudice now. We therefore affirm the District
Court's denial of Bell's motion to dismiss Count Thirty-Eight of the indictment and its grant of the
government's motion to amend the indictment.
Second, Bell argues that the District Court erred in denying his motion to suppress evidence from the
electronic surveillance of Wayne Holroyd's phone, which allowed the government to identify Bell as a
person of interest. Blue Br. 14-20. Following ChiefJudge Beryl A. Howell's signing and issuance ofan
order authorizing the continuation of the wiretap, J.A. 123-33, the Clerk's Office informed the government
that it did not have signed versions of the affidavit and application in support thereof - rather, it had
unsigned versions, together with the signed order. J.A. 134-35. In denying Bell's motion to suppress, the
District Court found that the at-issue wiretap order had been properly supported by an affidavit and
application sworn to and signed before Chief Judge Howell. J.A. 253-58. Bell hypothesizes that "there
were no signed copies" of the affidavit and application, Appellant's Opening Br. 19, and contends that the
wiretap order was therefore facially insufficient under Title III of the Omnibus Crime Control and Safe
Streets Act of 1968, 18 U.S.C. § 2510 et seq. "In assessing a district court's denial of a wiretap suppression
motion, the court reviews the district court's legal conclusions de novo and its factual findings for clear
error." United States v. Williams, 827 F.3d 1134, 1147 (D.C. Cir. 2016).
Title III - which "allows judges to issue wiretap orders authorizing the interception of communications
to help prevent, detect, or prosecute serious federal crimes," Dahda v. United States, 138 S. Ct. 1491, 1494
(2018) - requires each application for such an order to, inter alia, "be made in writing upon oath or
affirmation to a judge of competent jurisdiction," 18 U.S.C. § 2518(1). Title III authorizes the suppression
of evidence gleaned from a wiretap upon a showing that "the order of authorization or approval under which
it was intercepted is insufficient on its face." Id. § 2518(10)(a)(ii). In assessing an order for facial
insufficiency, "a reviewing court must examine the four comers of the order and establish whether, on its
face, it contains all that Title III requires it to contain." United States v. Scurry, 821 F.3d 1, 8 (D.C. Cir.
2016). But Bell points to no deficiency within the order's four comers, see id., nor does he establish that
the District Court's finding that the order was properly supported by an affidavit and application sworn to
and signed before Chief Judge Howell was clearly erroneous. Therefore, we affirm the District Court's
denial of Bell's motion to suppress evidence from the wiretap ofHolroyd's phone.

2

(Page 5 of Total)

3a
USCA Case #19-3020

Document #1849098

Filed: 06/26/2020

Page 3 of 4

Third, Bell asserts that the District Court erred in applying a two-level sentencing enhancement for
obstruction of justice. Blue Br. 20-24. Relying primarily on the testimony of a cooperating witness that
Bell "told" him to "get rid of [the witness's] phone," J.A. 406, the District Court found by a preponderance
of the evidence that Bell "did attempt to impede the government's investigation" and applied the two-level
sentencing enhancement under Section 3Cl.1 of the U.S. Sentencing Guidelines. J.A. 495; see id. 495-97.
Bell contends that the cooperating witness was not credible, Blue Br. 23-24, and also that his testimony,
even ifbelieved, establishes only that Bell "suggested" the witness dispose of the phone, which Bell argues
"is not sufficient to establish obstruction of justice." Appellant's Opening Br. 22. On appeal of sentencing
enhancements, "purely legal questions are reviewed de novo; factual findings are to be affirmed unless
clearly erroneous; and we are to give due deference to the district court's application of the sentencing
guidelines to facts." United States v. Vega, 826 F.3d 514,538 (D.C. Cir. 2016) (per curiam) (brackets and
citation omitted). We give "the greatest deference" to "the district court's credibility determinations."
United States v. Hart, 324 F.3d 740, 747 (D.C. Cir. 2003) (brackets and citation omitted). Where a litigant
fails to preserve his claim of error by raising an objection below, our review is only for plain error. Puckett
v. United States, 556 U .S. 129, 134-35 (2009); FED. R. CRIM. P. 52(b).
The Sentencing Guidelines provide for a two-level sentencing increase for a defendant who has
"willfully obstructed or impeded, or attempted to obstruct or impede, the administration of justice with
respect to the investigation ... of the instant offense of conviction[.]" U.S.S.G. § 3Cl.1; see also id. cmt.
4(D) (listing, under "Examples of Covered Conduct," "destroying or concealing or directing or procuring
another person to destroy or conceal evidence that is material to an official investigation ... or attempting
to do so"). Attacking the witness's credibility, Bell points to the witness's failure to mention Bell's name
earlier in the investigation and to inconsistencies in the witness's testimony as to the number of their
interactions, Blue Br. 22-24, but Bell fails to clear the high bar of establishing that the District Court's
credibility-driven factual finding was clearly erroneous. Nor do we find clear error in the District Court's
application of the sentencing enhancement to behavior that Bell, for the first time on appeal, attempts to
cast as a mere "suggestion"; given the witness's testimony that Bell "told" him to dispose of the phone, and
given too that the Guidelines sanction the application of the enhancement for "attempt," we cannot find that
the District Court committed a "clear or obvious" error in applying the enhancement. Puckett, 556 U.S. at
135.
Finally, Bell argues that the District Court abused its discretion by sentencing him based on acquitted
conduct. Although Bell was acquitted of the conspiracy charge, the District Court found by a preponderance
of the evidence that "Bell was accountable for at least 35 grams of crack cocaine," J.A. 491 - i.e., for an
amount that included the cocaine involved in the charged conspiracy. See J.A. 530. As Bell himself
acknowledges, however, "the state of the law permits sentencing based on acquitted conduct." Appellant's
Opening Br. 25; see United States v. Watts, 519 U.S. 148, 157 (1997) (per curiam) ("[T]he sentencing court
[may] consider[] conduct underlying [an] acquitted charge, so long as the conduct has been proved by a
preponderance of the evidence."); see also United States v. Settles, 530 F.3d 920, 924 (D.C. Cir. 2008)
("[U]nder binding precedent, the Constitution does not prohibit a sentencing court from relying on acquitted
conduct."). Bell forwards this claim of error "in order to preserve this issue for when that law is changed."
Appellant's Opening Br. 25. Because the District Court did not abuse its discretion by applying settled and
binding precedent to the facts before it (the only way in which Bell asserts the District Court erred here),
we affirm.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is directed to
withhold issuance of the mandate herein until seven days after resolution of any timely petition for rehearing

3

(Page 6 of Total)

4a
USCA Case #19-3020

Document #1849098

Filed: 06/26/2020

or petition for rehearing en bane. See FED. R. APP. P. 4l(b); D.C. CIR. R. 41.

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

4

(Page 7 of Total)

Isl
Daniel J. Reidy
Deputy Clerk

Page 4 of 4

5a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 1 of 6
AO 2458 (Rev. 02/IS)

Judgment in a Criminal Case
Sheet I

Fi LED

U NITED STATES DISTRICT COURT
District or Columbia

MAR 1 8 2019

Clerk, U.S. District and
,JUDGM ENT IN A CRIMINA lBCmt<6.t)tcy Courts

UN ITED STATES OF AM l: RICA

v.
ORLANDO BELL

Case >lumber: 17-cr-234-7 (TNM)

USM :'-lumber : 83130-007
Christopher Michael Davis
Dcfendn111's Attomcy

T II E DEFENDA NT:
0 pleaded guilty to count(s)
0 pleaded nolo contcnde1·e 10 count(s)
which wa~ acccp1cd by 1hc coun.

liZl was found guihy on coum(s)

37s and 38rs.

ancra pica ofno1 guihy.
The dcfondan1 is adjudica1cd guilty or these offenses:

T itle & Sectio n
21 USC § 841 (a)(1) and

Nature of Offense

O ffen se Ended

Unlawful Possession with Intent to Distribute Cocaine Base

3/9/20 17

37

841 (b)(1 )(C)

The defendant is scmenccd as provided in pages 2 through
the Sentencing Reform Act of 1984.

6

_

of this judgment. The sentence is imposed pmsuanl to

liZ'l The defendant has been fo und not guilty on count(s)

1s

0 Count(S)

0 a1·c dismissed on the motion or the United States.

Dis

It is ordered that the defendant must notify the United Stmcs attorney for this district within 30 days of any change of name. residence.
or mailing address until all fines, resti1u1ion, costs, and special assessments imposed by this jud~rncnt arc fully paid. If ordered IO pay rcsti1ution.
the dcfcnoant must notify the co1111 and United States auorncy of ma1crial changes in econonnc circumstances.

3/1 5/2019
Date of Imposition of Judgment

Trevor N. McFadden , U~District Judg_e _ _
-Name and Title of Judge

6a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 2 of 6
AO 245B (Rev. 02/1 8)

Judgment in a Cnmrnal Case
Sheet IA

Judgment

Page

.2__

of

DEFEND!-\. T : ORLANDO BELL
CASE :--J UMRER : 17-cr-234-7 (TNM)

ADDIT IONA L COUNT S OF CO NVI CTI ON
Title & Sect ion

Nat ure of Offense

Offense End ed

18 USC§ 924(c)(1)

Using, Carrying, and Possessing a Firearm During a

· 3/9/2017

Drug Trafficking Offense

Count
38

6

7a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 3 of 6
AO 245B (Rev. 02/18) Judgment in Criminal Case
Imprisonment
Sheet 2
Judgment -- Page

3

of

DEFENDANT: ORLANDO BELL

CASE NUMBER: 17-cr-234-7 (TNM}

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
SEVENTY (70} MONTHS on Count 37 and SIXTY (60} MONTHS on Count 38, to run consecutively to Count 37.

D The court makes the following recommendations to the Bureau of Prisons:

!iZI The defendant is remanded to the custody of the United States Marshal.
0 The defendant shall surrender to the United States Marshal for 1his district:
D at
0
0

0 a.m.

D p.m.

on

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D before 2 p.m. on

D

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Ollice.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to

_ , with a certified copy of this judgment.

. UNITED STATES MARSHAL

By

·------

DEPUTY UNITED STATES MARSHAL

8a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 4 of 6
AO 2451l (Rev. o~:J&) Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page

A~ of

DEFENDANT: ORLANDO BELL
CASE NUMBER: 17-cr-234-7 (TNM)

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
No term of Supervised Release imposed.
It is the ORDER of the Court that upon release from imprisonment, you shall comply with the following:
Deportation Compliance - You must immediately report or surrender to U.S. Immigration and Customs Enforcement and
follow all their instructions and reporting requirements until any deportation proceedings are completed. If you are ordered
deported from the United States, you must remain outside the United States, unless legally authorized to re- enter. If you
re-enter the United States, you must report to the nearest probation office within 72 hours after you return.
It is further ORDERED that:
The probation office shall release the presentence investigation report and/or Judgment and Commitment Order to the
Bureau of Immigration and Customs Enforcement (ICE) to facilitate any deportation proceedings.
· The probation office shall release the presentence investigation report to all appropriate agencies in order to execute the
sentence of the Court.

MANDATORY CONDITIONS

,
3.

-L

5.

You must not commit another federal, state or local crime.
You must not unlawfully possess u controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, us determined by the court.
D The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if appl,cableJ
C You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. fcheck i{<1pphmhleJ
D You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

D You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C.

7.

D

§ 2090 I, el seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, arc a studclll, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicuhle)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

9a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 5 of 6
AO 2458 (Rev. 02/18)

Judgment in a Criminal Case
Sheet S - Criminal Monetary Penalties
Judgment - Page __5__

of ______ §_____

DEFENDANT: ORLANDO BELL
CASE NUMBER: 17-cr-234-7 (TNM}

CRIMINAL MONETARY PENAL TIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6,

$

Restitution

Fine

JVT A Assessment*

Assessment
$ 200.00

TOTALS

0.00

$

S 0.00

0.00

D

The determination of restitution is deferred until
afier such determination.

0

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

• An Amended Judgmelll in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment. each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However. pursuant to 18 U.S.C. § 3664(i). all nonfederal victims must be paid
·
before the United States is paid.

Total Loss**

Name of Payee

TOTALS

0.00

$

$

Restitution Ordered

Priority or Percentage

0.00

0

Restitution amount ordered pursuant to pica agreement S

D

The defendant must pay interest on restitution and a fine of more than S2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 36 l 2(t). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S .C. § 36 I 2(g).

0

The court detennined that the defendant does not have the ability to pay interest and it is ordered that:

0

the interest requirement is waived for the

0

the interest requirement for the

D

fine

D fine
D

O restitution.

restitution is modified as follows:

• Justice for Victims ofTrafficking Act of 2015. Pub. L. No. 114-22.
"'* Findings for the total amount oflosses are required under Chapters 109A, 110, 11 OA. and 113A of Title I 8 for offenses committed on or
nfier September I 3, 1994, but before April 23, 1996.

10a
Case 1:17-cr-00234-TNM Document 175 Filed 03/18/19 Page 6 of 6

AO 2458 (Rev. 02/18) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments

Judgment -- Page

_6~~

of

.6

DEFENDANT: ORLANDO BELL
CASE NUMBER: 17-cr-234-7 (TNM)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

fl)

Lump sum payment of$

D

liZI

200.00

not later than
in accordance with □ C,

due immediately, balance due
, or

□ D,

D E,or

8

□ Payment to begin immediately (may be combined with

C

D Payment in equal

_____

(e.g., 11101111,s or years),

D

D

liZI

F below; or

□ c.

(e.g., week(1•, 111011th(1•, qucwterly)

to commence

____

D F below); or

D D,or
installments of

$

(e.g.• 30 01· 60 days)

_ _ _ _ _ _ _ over a period of
after the date of this judgment; or

over a period of
_____ (e.g .. week(.-. 111011th(r, q11aner(rJ installments of S _____
to commence _ _ _ _ (e.g .• 30 or 60 days) after release from imprisonment to a
term of supervision; or
Payment in equal

(e.g., mom/is or yee1rs},

. _ . (e.g .• 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

E

D Payment during the term of supervised release will commence within

F

~

Special instructions regarding the payment of criminal monetary penalties:
The special assessment is immediately payable to the Clerk of the Court for the U.S. District Court, District of
Columbia. Within 30 days of any change of address, you shall notify the Clerk of the Court of the change until
such time as the financial obligation is paid in full.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D

Joint and Several
Defendant and Co-Defendant Names and Case Numbers
and corresponding payee, if appropriate.

fi11c/11di11g defemla11t 1111111ber),

Total Amount, Joint and Several Amount,

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

D

The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (I) assessment, (2) restitution principal, (3) ~estitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) NTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

